LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 10, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-1099: CITY OF BAKERSFIELD, AARON STRINGER V. LESLIE LARAY CRAWFORD
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief in
Support of Petition for Certiorari referenced above contains 2,445 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 10th day of July 2020.

